Audit Report




OIG-14-001
INFORMATION TECHNOLOGY: OCC’s Network and Systems
Security Controls Were Deficient


October 17, 2013




Office of
Inspector General
Department of the Treasury
Contents

Audit Report

  Results in Brief ........................................................................................ 1

  Background ............................................................................................ 4

  Findings and Recommendations ................................................................ 4

      Default Usernames and Passwords Were Present in OCC’s Systems ......... 4
      Recommendations............................................................................... 6

      OCC Did Not Fully Implement Least Privilege Controls ............................. 8
      Recommendations............................................................................... 9

      PII on OCC’s Public-Facing Web Server Was Vulnerable to Unauthorized
      Access ............................................................................................ 10
      Recommendation ............................................................................... 11

      OCC’s E-mail Servers Were Vulnerable to Spoofed E-mail (Repeat Finding) 12
      Recommendation ............................................................................... 12

      OCC’s Configuration Management Needs Improvement (Repeat Finding) .. 13
      Recommendations.............................................................................. 14

      OCC’s Help Desk Was Susceptible to Social Engineering Attacks ............ 15
      Recommendation ............................................................................... 16

      OCC’s Patch and Version Management Needs Improvement
      (Repeat Finding) ................................................................................ 16
      Recommendation ................................................................................ 18

Appendices

  Appendix     1:      Objective, Scope, and Methodology ...................................             20
  Appendix     2:      Management Response ....................................................          22
  Appendix     3:      Major Contributors to This Report ......................................          26
  Appendix     4:      Report Distribution ...........................................................   27




                       OCC’s Network and Systems Security Controls Were Deficient             Page i
                       (OIG-14-001)
Abbreviations

  Fiscal Service   Bureau of the Fiscal Service
  IP               Internet Protocol
  IT               Information Technology
  NIST SP          National Institute of Standards and Technology Special
                   Publication
  OCC              Office of the Comptroller of the Currency
  OIG              Treasury Office of Inspector General
  PII              Personally Identifiable Information
  TNet             Treasury Network




                   OCC’s Network and Systems Security Controls Were Deficient   Page ii
                   (OIG-14-001)
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General



                      October 17, 2013

                      Thomas J. Curry
                      Comptroller of the Currency

                      This report represents the results of our audit of network and
                      systems security at the Office of the Comptroller of the
                      Currency (OCC). Our objective was to determine whether
                      sufficient protections exist to prevent and detect unauthorized
                      access into OCC’s network and systems.

                      To accomplish our objective, we performed a series of internal
                      and external vulnerability assessments and penetration tests on
                      OCC’s workstations, servers, network-attached peripherals
                      (such as cameras and printers), infrastructure devices, and
                      Internet websites. We also tested the physical security of
                      OCC’s headquarters and performed social engineering tests by
                      e-mail and phone phishing.1 Additionally, we followed up on the
                      findings in our prior report from 2008.2 Due to the time that has
                      passed since our prior report, we did not determine if the
                      findings that are repeated in this report were issues that had
                      been resolved and then deteriorated back to the initial condition,
                      or if they were long standing issues that had not been
                      addressed. We performed our fieldwork in Washington, DC, in
                      February and March 2013. Our objective, scope, and
                      methodology are described in more detail in appendix 1.

Results in Brief
                      We determined that OCC’s security measures were not
                      sufficient to fully prevent and detect unauthorized access into

1
  Phishing is a fraud method where the perpetrator uses what appears to be official communication
such as e-mail or phone calls in an attempt to gather information from recipients.
2
  OIG, Information Technology: Network Security at the Office of the Comptroller of the Currency
Needs Improvement, OIG-08-035 (June 3, 2008)



                      OCC’s Network and Systems Security Controls Were Deficient            Page 1
                      (OIG-14-001)
                       its network and systems by internal threats,3 or external
                       threats4 that gained an internal foothold. Also, OCC’s security
                       measures were not adequate to fully protect personally
                       identifiable information (PII) from Internet-based threats. On a
                       positive note, we found that physical security at OCC’s new
                       headquarters location was adequate.

                       Our test results revealed that not all required security controls
                       were consistently applied over OCC’s network and systems. To
                       test for weaknesses in controls intended to thwart internal
                       threats, we were given the typical access provided to any OCC
                       employee — OCC access badges, an OCC-issued laptop
                       computer, and a local network account, as well as network
                       access for Treasury Office of Inspector General (OIG) test
                       laptops. Using OIG test laptops, configured with network
                       assessment and penetration tools, we discovered factory-preset
                       default usernames and passwords were being used on several
                       systems. With that knowledge, we exploited the systems with
                       our penetration test tool and found clear text passwords that
                       allowed us to log onto several systems using local and network
                       administrative accounts. Once we had access to these
                       administrative accounts, we created a domain administrator
                       account for ourselves. With this account, we had full control of
                       every OCC computer. We had permissions to do anything on
                       any computer, from viewing what was running on users’
                       desktops to saving and deleting files on file servers to adding
                       and deleting accounts on the domain controller.

                       In performing another test on internal threats, we used
                       employee information posted on OCC’s intranet and available to
                       all OCC employees. With that information, we were able to
                       impersonate an OCC employee and convince OCC’s Help Desk
                       to reset that employee’s password, thereby giving us full access
                       to the user’s account.



3
  An internal or insider threat is a current or former employee, contractor, or other business partner
who has or had authorized access to a network, system, or data, and intentionally exceeds or
misuses that access, resulting in a negative effect on the organization’s information security.
4
  An external threat is a threat originating outside the organization.


                       OCC’s Network and Systems Security Controls Were Deficient                Page 2
                       (OIG-14-001)
                         To illustrate examples of weaknesses in controls intended to
                         thwart external threats, we prepared and sent spoofed e-mails
                         to OCC users using an e-mail client5 on an OIG laptop computer
                         to connect to OCC’s e-mail server through the Internet. This
                         server was operated by the Bureau of the Fiscal Service (Fiscal
                         Service) on behalf of OCC. Also, we successfully downloaded
                         through the Internet on an OIG laptop, PII from a public web
                         server owned and managed by OCC. The outcomes of these
                         tests are explained in our findings later in this report.

                         We consider the breadth, depth, and potential impact of the
                         network security deficiencies as serious matters that require
                         prompt corrective action by OCC management. In all, we are
                         reporting seven findings:

                         1. Default usernames and passwords were present in OCC’s
                            systems
                         2. OCC did not fully implement least privilege controls
                         3. PII on OCC’s public-facing web server was vulnerable to
                            unauthorized access
                         4. OCC’s e-mail servers were vulnerable to spoofed e-mail
                            (Repeat Finding)
                         5. OCC’s configuration management needs improvement
                            (Repeat Finding)
                         6. OCC’s Help Desk was susceptible to social engineering
                            attacks
                         7. OCC’s patch and version management needs improvement
                            (Repeat Finding)

                         We are making 11 recommendations to address these findings.

                         In a written response to a draft copy of this report, OCC
                         management concurred with our findings and recommendations,
                         and provided its corrective actions taken and planned (see
                         appendix 2). OCC’s stated and planned corrective actions are
                         responsive to the intent of our recommendations.



5
    An email client is a computer program used to access an email server.


                         OCC’s Network and Systems Security Controls Were Deficient   Page 3
                         (OIG-14-001)
Background
             OCC was created by Congress to charter national banks, to
             oversee a nationwide system of banking institutions, and to
             assure that national banks are safe and sound, competitive and
             profitable, and capable of serving in the best possible manner
             the banking needs of their customers. OCC’s network and
             systems are integral parts of its mission support structure.
             Several OCC systems contain PII collected during examinations
             and other oversight activities. As a federal agency, OCC is
             prohibited by law from releasing PII to the public.

             Because OCC’s computers are connected with each other, other
             bureaus’ networks, and the Internet, it is important that proper
             configurations and controls be in place to ensure that only
             authorized users are granted access. Unauthorized access to
             OCC’s network could provide an intruder with the opportunity
             to compromise the confidentiality, integrity, and availability of
             sensitive information. Once inside, unauthorized users could
             extract, delete, or modify sensitive data; discover user names
             and passwords; and launch denial-of-service attacks. If these
             unauthorized activities are not prevented or timely detected,
             such activities could result in compromises of information and
             systems, and thus hinder OCC’s mission.

Findings and Recommendations
Finding 1    Default Usernames and Passwords Were Present in
             OCC’s Systems
             We found that default factory-preset administrative usernames
             and passwords were present in OCC’s systems. In one test we
             conducted, we discovered a default username and password of
             an internal service account on an OCC server which had local
             administrator privileges. We used those privileges and deployed
             our penetration test tool’s agents to the host server. That server




             OCC’s Network and Systems Security Controls Were Deficient   Page 4
             (OIG-14-001)
                       contained password hashes6 for local and domain administrator
                       accounts. Using these hashes, we obtained a domain
                       administrator’s password, which we then used to log on to the
                       network domain controller.7 With full access given to a typical
                       domain administrative account, we created a domain
                       administrator account and thereby had full control of OCC’s
                       network.

                       During a different test, we were able to access a management
                       console8 on an OCC website by using a default factory-preset
                       password. Using the information from the console, we gained
                       access to PII. The details of PII access are described in
                       Finding 3.

                       In another test, we discovered and used factory-preset
                       usernames and passwords for local administrative accounts to
                       access printers, Internet Protocol (IP) cameras, IP camera
                       servers, network infrastructure devices, and voice-over-IP
                       devices. Each account provided full control of the device,
                       including the capability to change configuration, accounts, and
                       data on the device.

                       National Institute of Standards and Technology Special
                       Publication (NIST SP) 800-53, Revision 3, “Recommended
                       Security Controls for Federal Information Systems,” requires
                       organizations to manage passwords for users and devices by
                       changing the default password upon installation. Furthermore,
                       OCC’s Master Security Control Catalog, v2.0.1, dated
                       December 2012, requires that all default account passwords be
                       changed.

                       OCC staff stated that their “common practice” is to change
                       default usernames and passwords. After being briefed on our

6
  A password hash is the result of a password that has been transformed into another string of
alphanumeric characters by a one-way algorithm (i.e., you cannot recover the original password by
simply using the hash).
7
  Domain controllers are computers that use one shared directory to store security and user-account
information for an entire Windows domain.
8
  A management console is a tool that allows someone to modify information, passwords, and
system settings.


                       OCC’s Network and Systems Security Controls Were Deficient            Page 5
                       (OIG-14-001)
findings, they informed us that they scanned a sample of
network assets but were unable to find any system or machine
configured with default passwords. They also said that the
passwords on the IP cameras were not changed because the
cameras were low-risk to OCC. We did not receive any
documentation of this “common practice” that would make it a
standard procedure, nor were we provided with the sample that
OCC staff scanned.

By leaving default usernames and passwords unchanged, those
who pose a threat to information technology (IT) security could
easily access OCC’s network and systems. The aggregate
effect of the presence of these default usernames and
passwords is that attackers could have unrestricted access to
these devices and the data stored on them, especially the
password hash for local and domain administrative accounts.

In accordance with our Rules of Engagement, we did not
attempt to perform actions that would disrupt OCC’s
operations, such as deleting data, powering off servers or other
resources, locking out accounts, and similar activities, any of
which could have resulted in interruption or shutdown of
devices or services. However, malicious attackers would have
no such restrictions against performing these actions.

Recommendations

We recommend that the Comptroller of the Currency:

1. Develop and implement a standard procedure requiring
   default usernames and passwords be changed on all systems
   and devices.

   Management Response

   OCC updated its standard operating procedures in June
   2013 to provide guidance that will ensure that all default
   user names and passwords are changed on all systems and
   devices. The updated standard operating procedures require
   all devices to be subject to management controls, which
   include specific checks in the review and approval process to

OCC’s Network and Systems Security Controls Were Deficient   Page 6
(OIG-14-001)
   ensure that usernames and passwords are changed prior to
   introducing new or modified software and/or devices to the
   network.

   OIG Comment

   Management’s stated corrective action is responsive to our
   recommendation.

2. Change all default usernames and passwords on all systems
   and devices in an expeditious manner.

   Management Response

   All default usernames and passwords were changed or
   updated effective September 2, 2013.

   OIG Comment

   Management’s stated corrective action is responsive to our
   recommendation.

3. Periodically review accounts to detect default usernames and
   passwords on all systems and devices, and, when detected,
   change them.

   Management Response

   Effective August 16, 2013, OCC began monthly scans to
   identify default user names and passwords on software and
   network devices which results in a Default Credentials
   report. In addition, OCC also conducts a Network
   Penetration Test every other month producing the Network
   Penetration Test report. These reports identify default
   usernames and passwords across network devices. OCC
   immediately remediates any findings. Results are periodically
   reported to the OCC Chief Information Officer and other
   OCC IT officials.




OCC’s Network and Systems Security Controls Were Deficient   Page 7
(OIG-14-001)
                            OIG Comment

                            Management’s stated corrective action is responsive to our
                            recommendation.

Finding 2               OCC Did Not Fully Implement Least Privilege Controls
                        We observed that OCC had not implemented least privilege
                        controls9 in a way that effectively restricted our ability, or an
                        attacker’s ability, to launch attacks within OCC’s network. We
                        noted that OCC’s network is “flat,” meaning that it lacks
                        subnets and partitions that restrict access. Consequently, there
                        is an increased risk that attacks could spread easily and rapidly
                        throughout a “flat network.” Over the course of our audit, we
                        successfully compromised OCC workstations, servers, and
                        other network-attached devices. From our workstations, we
                        were able to compromise OCC systems in Tulsa, Wichita, New
                        York, and Washington, D.C.; OCC systems used by business
                        units, including the Office of the Ombudsman; and OCC
                        systems used by its examiners in a number of locations. We
                        also discovered that many systems were configured with the
                        same local administrative password. The situation was
                        compounded because of an extraordinarily high number of
                        domain administrator accounts on the network’s domain
                        controller. In addition to a higher than expected number of
                        domain administrators, we found that a number of service
                        accounts had far greater administrative privileges than should
                        have been necessary for such accounts.10

                        NIST SP 800-53, Revision 3, “Recommended Security Controls
                        for Federal Information Systems,” requires organizations employ
                        the concept of least privilege and only allow access necessary
                        to accomplish assigned tasks in accordance with organizational
                        missions and business functions.


9
  The principle of least privilege is the practice of allowing only access at the minimal level that will
allow normal business functions to take place. This translates to giving people and processes the
lowest level of rights available that allow them to still do their jobs.
10
   A service account is a user account that is created explicitly to provide a security context (i.e.,
privileges and restrictions) for services running on a server, as opposed to a human user.


                        OCC’s Network and Systems Security Controls Were Deficient                  Page 8
                        (OIG-14-001)
An OCC official stated that the network functions met the
needs of the organization and access to network assets was
appropriately restricted. The official also noted that OCC’s
network did not restrict traffic between physical locations or
business units. That said, we were also informed that OCC
personnel have not performed a risk analysis of a “flat network”
as compared to a more internally segmented one.

Because systems and devices connected to OCC’s internal
network could freely communicate between one another, with
very little internal partitioning, we successfully attacked multiple
OCC systems in a very short amount of time from a single
workstation. OCC’s “flat network” configuration allowed us to
reuse password hashes we found on previously compromised
machines and to gather more information using compromised
devices. Moreover, the “flat network” increased the attack
surface by giving us easy access to the entire network once a
foothold on any system was established. As a result, OCC’s
failure to segment the network and implement least privilege
enabled us to move through the network unimpeded.
Furthermore, OCC’s practice of using the same local
administrator passwords contributed to the speed and ease with
which we compromised systems on the network. The use of
factory default passwords allowed for much of the same.
Finally, having a large number of unnecessary domain
administrator accounts increased risks of attackers targeting
and exploiting powerful accounts and account holders.

Recommendations

We recommend that the Comptroller of the Currency:

1. Conduct a risk assessment of OCC’s network topology and
   implement appropriate least privilege controls.

   Management Response

   OCC will complete a comprehensive assessment to quantify
   the risks and gaps associated with the legacy “flat” network
   topology, and will develop a network topology architecture
   and roadmap for enabling appropriate least privilege controls
   by December 31, 2013.

OCC’s Network and Systems Security Controls Were Deficient    Page 9
(OIG-14-001)
               OIG Comment

               Management’s planned corrective actions are responsive to
               our recommendation.

            2. Restrict network access as required by business needs and
               in accordance with risk assessment results and least
               privilege principles.

               Management Response

               OCC strengthened its policies, procedures, and network
               scanning for managing accounts with elevated privileges.
               These changes mandate that elevated privileges are granted
               based on specific roles and subjected to a multi-tiered review
               and approval adjudication process. The domain administrator
               accounts have been adjudicated and rationalized. Other
               relevant accounts will be rationalized by December 15,
               2013, and service accounts will be rationalized by March 31,
               2014. OCC will execute an approved network topology
               architecture and roadmap to restrict network access in
               accordance with business needs and least privilege principles
               by March 17, 2014.

               OIG Comment

               Management’s stated and planned corrective actions are
               responsive to our recommendation.

Finding 3   PII on OCC’s Public-Facing Web Server Was Vulnerable
            to Unauthorized Access
            We found that PII was vulnerable to unauthorized access on
            OCC’s Internet website, ComplaintReferralExpress.gov. This is a
            web-based system that allows OCC and other state and federal
            regulators and offices to exchange consumer complaints about
            institutions they do not supervise. We were able to use a
            factory-preset username and password for the website’s
            management console to modify system settings and gather
            sensitive information. Among the information found on this
            server, we were able to gather names of bank customers who


            OCC’s Network and Systems Security Controls Were Deficient   Page 10
            (OIG-14-001)
had filed complaints and their associated phone numbers, street
addresses, and e-mail addresses.

The Privacy Act requires federal agencies to establish
appropriate administrative, technical, and physical safeguards to
protect the security and confidentiality of records about
individuals. Additionally, OCC entered into Memoranda of
Understanding with state and federal agencies that require OCC
maintain appropriate safeguards to protect non-public and
confidential information.

OCC officials stated that they were not aware that the
website’s management console was available to the Internet.

Failure to provide adequate protections for PII on the
ComplaintReferralExpress.gov website could allow attackers to
obtain bank customers’ personal information for malicious
intent.

Recommendation

We recommend that the Comptroller of the Currency implement
safeguards to protect PII on OCC’s Internet website.

Management Response

OCC changed the default password on the website on April 24,
2013 and decoupled the management console from the publicly
facing website on May 28, 2013. To ensure these websites
remain secure, OCC runs monthly vulnerability scans that detect
weaknesses. In summary, OCC (1) updated its policy and
procedures for securing websites with PII; (2) implemented tools
and manual testing to conduct monthly security testing of all of
its external websites; and (3) tested the specific method the
auditors used to exploit the website to ensure it could not be
reproduced on any other OCC websites.

OIG Comment

Management’s stated corrective actions are responsive to our
recommendation.


OCC’s Network and Systems Security Controls Were Deficient   Page 11
(OIG-14-001)
Finding 4   OCC’s E-mail Servers Were Vulnerable to Spoofed
            E-mail (Repeat Finding)
            We found that OCC’s e-mail servers allowed unauthenticated
            e-mails to be sent to any of OCC’s e-mail users from outside of
            Treasury with a spoofed occ.treas.gov source address. As a
            result, we successfully sent from an OIG laptop, spoofed
            e-mails to OCC e-mail users with forged OCC e-mail headers so
            that the message appeared to have been originated from within
            OCC. This vulnerability was previously identified in our 2008
            report.

            Treasury Directive Publication 85-01, “Treasury Information
            Technology Security Program,” requires all inbound e-mail with
            a sender address claiming to be from a Treasury entity to be
            verified as having originated from a trusted Treasury e-mail
            system.

            An OCC official provided us with the Interconnection Security
            Agreement where OCC agreed to have Fiscal Service manage
            its inbound e-mail traffic from the Internet to its servers. We
            discussed the vulnerability in the e-mail servers with OCC and
            Fiscal Service personnel, and OCC officials stated they would
            work with Fiscal Service to resolve the issue.

            If mail servers allow e-mails to be sent without authentication,
            there is an increased risk of servers being exploited by attackers
            by sending malicious e-mails or spam. Spoofed e-mails, as
            described above, appear legitimate and lend credibility to
            phishing attacks.

            Recommendation

            We recommend that the Comptroller of the Currency work with
            Fiscal Service to ensure controls are put in place to prevent
            spoofed e-mails from being sent to or through OCC servers.

            Management Response

            In consultation with Fiscal Service and OIG, OCC implemented
            an alternate strategy to address the identified vulnerability, and

            OCC’s Network and Systems Security Controls Were Deficient   Page 12
            (OIG-14-001)
                      OCC began blocking unauthorized source spoofing of the
                      occ.treas.gov domain effective August 31, 2013.

                      OIG Comment

                      Management’s stated corrective action is responsive to our
                      recommendation.

Finding 5             OCC’s Configuration Management Needs Improvement
                      (Repeat Finding)
                      As part of our network and system security assessment, we
                      performed network scans to detect systems, devices, and
                      network services running on the OCC domain. We discovered
                      222 unique open ports11 running network services on systems
                      and devices throughout the network. This vulnerability was
                      previously identified in our 2008 report.12

                      NIST SP 800-53, Revision 3, “Recommended Security Controls
                      for Federal Information Systems,” requires organizations restrict
                      the use of ports, protocols, and services not required for
                      business purposes. Additionally, it requires organizations to
                      identify, document, and approve exceptions to the mandatory
                      configuration settings. Organizations are required to monitor
                      their systems and applications for changes to these
                      configuration settings.

                      According to an OCC official, unauthorized software, ports and
                      services discovered on workstations were likely installed or
                      configured when OCC general users had administrative
                      privileges on their workstations. The official stated that these
                      privileges were removed in 2012 and OCC scanned for
                      unnecessary ports and services at least annually. However,
                      when we provided a sample of open ports and asked why they
                      were open on servers, OCC officials could only provide us with
                      the causes for some of these open ports. Furthermore, OCC

11
   A port is a means by which a program or service on one system can communicate with a program
or service located on another system.
12
   OIG, Information Technology: Network Security at the Office of the Comptroller of the Currency
Needs Improvement, OIG-08-035 (June 3, 2008)


                      OCC’s Network and Systems Security Controls Were Deficient          Page 13
                      (OIG-14-001)
officials could not provide us with approved business
justifications for any of the open ports in our sample.

Allowing unnecessary open ports and services increases the
attack surface available to attackers by permitting unmonitored
and potentially vulnerable services to run on the network. These
services provide an attacker with a wider array of potential
vulnerabilities to exploit. Failure to monitor and document open
ports and services makes it difficult for an organization to
control and track changes to its environment, and provides a
means by which an attacker could run malicious services
undetected.

Recommendations

We recommend that the Comptroller of the Currency:

1. Develop and implement procedures to identify, document,
   and approve base configuration settings for ports and
   services.

   Management Response

   OCC’s policy requires that mandatory configuration settings
   be established for information technology devices. To ensure
   consistent implementation of this policy, OCC will (1)
   complete a baseline comprehensive configuration document
   reflecting the OCC’s business needs for using ports and
   services by September 30, 2013; (2) update the existing
   configuration management process to include the
   identification and documentation of essential ports and
   services for application and hardware changes effective
   October 31, 2013; and (3) continue its existing monitoring
   and assessment processes to verify compliance with the
   baseline configurations.

   OIG Comment

   Management’s planned corrective actions are responsive to
   our recommendation.



OCC’s Network and Systems Security Controls Were Deficient   Page 14
(OIG-14-001)
            2. Disable or remove unnecessary or unused services or open
               ports.

               Management Response

               New personal computers deployed OCC-wide in fiscal year
               2013 restrict configuration changes and ability to install
               software, thereby limiting the desktop to approved-only open
               ports and services. By October 1, 2013, OCC will implement
               procedures to incorporate monthly monitoring and immediate
               disabling or removal of unauthorized ports and services for
               all network devices and applications; and by March 31,
               2014, OCC will disable or remove all unnecessary or unused
               services or open ports identified by this audit.

               OIG Comment

               Management’s planned corrective actions are responsive to
               our recommendation.

Finding 6   OCC’s Help Desk Was Susceptible to Social
            Engineering Attacks
            We found that OCC’s Help Desk was susceptible to social
            engineering attacks. The standard procedure used by the Help
            Desk to verify a user’s identity only required information that
            was available to all OCC users via OCC’s internal network.
            Using available employee information, we impersonated an OCC
            employee and were able to convince Help Desk to reset the
            employee’s password whom we impersonated. Once changed,
            we could have used that password to compromise the
            employee’s account. Based on the success of our attempt
            combined with the Help Desk’s use of a standard procedure to
            verify user identity, we decided to forgo further testing to
            minimize disruption to OCC users.

            NIST SP 800-53, Revision 3, “Recommended Security Controls
            for Federal Information Systems,” requires organizations to
            verify the identity of the individual receiving a new password.




            OCC’s Network and Systems Security Controls Were Deficient   Page 15
            (OIG-14-001)
            OCC officials told us that they were unaware that the
            information used by the Help Desk to validate user identities
            was available to all OCC employees until we brought this issue
            to their attention.

            Depending on whose account was targeted, an attacker could
            obtain a new password for a user account with access to
            administrative privileges or access to sensitive and privileged
            information. An attacker could also perform overt malicious
            activities while logged onto a legitimate user account with a
            fraudulently reset password. Once an attacker resets an
            account’s password, the legitimate user of the account would
            not be able to log on to the account, until they requested a
            password reset.

            Recommendation

            We recommend that the Comptroller of the Currency improve
            the Help Desk’s procedures for verification of user identities to
            prevent impersonation. The procedures should provide for
            verification of user identity information that is not available to
            others.

            Management Response

            On July 22, 2013, OCC implemented a new method for
            password reset which does not use information available to
            others. All users and OCC IT staff were informed of the
            changes, and internal controls within IT Customer Support were
            implemented to ensure compliance with the new policy.

            OIG Comment

            Management’s stated corrective actions are responsive to our
            recommendation.

Finding 7   OCC’s Patch and Version Management Needs
            Improvement (Repeat Finding)
            We found 19 instances of unsupported or outdated versions of
            software (operating systems, database management systems,

            OCC’s Network and Systems Security Controls Were Deficient   Page 16
            (OIG-14-001)
                      and web application servers) in use on OCC’s network.
                      Specifically, we found the following:

                      Operating Systems (13 instances found):

                            4 servers running Windows Server 2003 Service Pack 1,
                             unsupported after April 2009.
                            4 workstations running Windows XP Service Pack 2,
                             unsupported after July 2010.
                            5 servers running Debian Linux 4.0, unsupported after
                             February 2012.

                      Database Management Systems (2 instances found):

                            1 server running Oracle MySQL 5.0.18. Oracle has
                             announced that no new Maintenance Releases, Bug
                             Fixes, Patches, and updates would be released as of
                             January 2012.
                            1 server running Oracle MySQL 5.0.95. Oracle has
                             announced that no new Maintenance Releases, Bug
                             Fixes, Patches, and updates would be released as of
                             January 2012.

                      Web Application Servers (4 instances found):

                            4 instances of a vulnerable web service (Apache
                             Tomcat13 4.1.18-4.1.29). Tomcat 4.1.x was last updated
                             June 2009 and it is no longer being updated by its
                             developers. The current versions are 6.0.x, released in
                             December 2006, and 7.0.x, released in January 2011.

                      With respect to the Operating Systems, OCC staff told us that
                      their workstations were running fully supported Microsoft
                      operating systems. However, when OCC staff conducted their
                      own scan, it also identified four instances of Microsoft
                      Windows XP Service Pack 2. They did not explain the presence
                      of those instances in their scan. With respect to the other

13
  Apache Tomcat is a web server that is an open source software implementation of the Java
Servlet and JavaServer Pages technologies.


                      OCC’s Network and Systems Security Controls Were Deficient        Page 17
                      (OIG-14-001)
operating systems, the Database Management Systems, and
the Web Application Servers, OCC staff initially disagreed with
the instances of outdated software identified by our scan, but
later told us that the instances had been addressed through
upgrades, decommissioning of the software, or determined they
are not a security risk. We did not, as part of our audit, verify
that these actions had been taken.

NIST SP 800-53, Revision 3, “Recommended Security Controls
for Federal Information Systems and Organizations,” states that
organizations must promptly install security-relevant software
updates (e.g., patches, service packs, and hot fixes).

This finding was previously identified in our 2008 report, and is
a matter that requires continuous management attention.
Systems running unsupported operating systems, database
management systems, or web services do not and cannot
receive patches or updates from the software providers in
response to security threats from newly discovered
vulnerabilities.

Recommendation

We recommend that the Comptroller of the Currency ensure
that systems and applications are running supported and up-to-
date operating systems.

Management Response

On June 6, 2013, OCC implemented a bi-weekly network
scanning procedure for detecting instances of end-of-life
software. By September 30, 2013, OCC will implement an end-
of-life and unsupported software policy, and will implement
procedures for upgrading software on workstations, servers,
and network devices. By November 30, 2013, all instances of
end-of-life software identified by this audit will be resolved.

OIG Comment

Management’s stated and planned corrective actions are
responsive to our recommendation.


OCC’s Network and Systems Security Controls Were Deficient   Page 18
(OIG-14-001)
                                ******

I would like to extend my appreciation to Edward Dorris, Chief
Information Officer, and OCC staff for the cooperation and
courtesies extended to my staff during the audit. If you have
any questions, please contact me at 202-927-5171 or Larissa
Klimpel, Information Technology Audit Manager, at
202-927-0361. Major contributors to this report are listed in
appendix 3.

/s/

Tram Jacquelyn Dang
Audit Director




OCC’s Network and Systems Security Controls Were Deficient   Page 19
(OIG-14-001)
                      Appendix 1
                      Objective, Scope, and Methodology



                      Our objective for this audit was to determine whether sufficient
                      protections exist to prevent and detect unauthorized access into
                      the Department of the Treasury Office of the Comptroller of the
                      Currency’s (OCC) network and systems.

                      To accomplish our objective, we performed a series of internal
                      and external vulnerability assessments and penetration tests on
                      OCC’s workstations, servers, network-attached peripherals
                      (such as cameras and printers), infrastructure devices, and
                      Internet websites.

                      Internal assessments were performed on-site at OCC’s new
                      headquarters facility in Washington, DC, in February and March
                      of 2013. The internal assessment was conducted inside OCC’s
                      network, behind Treasury Network (TNet14) firewalls, with full
                      knowledge of OCC, and we were provided the same system
                      access, physical assets, information, and other resources
                      available to OCC employees stationed at headquarters. We also
                      used Office of Inspector General (OIG) owned and licensed
                      hardware and software, including Core Impact and Nexpose.
                      During our tests, we notified OCC information security staff of
                      issues we discovered that we believed may have been indicative
                      of serious problems that would require their immediate
                      attention. While at OCC headquarters, we performed social
                      engineering tests by e-mail and phone phishing15 to determine
                      whether OCC’s Help Desk was able to prevent and detect
                      attempts at impersonating OCC employees. We also conducted
                      limited tests of the physical security by attempting to enter the
                      building from the outside without using OCC-issued badges.
                      Lastly, we followed up on the status of the findings in our prior
                      report from 2008.16

                      External assessments were performed from OIG headquarters
                      via non-TNet connections and using only OIG hardware and
                      software, and information available to the general public.

14
   TNet is a wide area network that provides Treasury with e-mail, Internet, and voice traffic
applications.
15
   Phishing is a fraud method where the perpetrator uses what appears to be official communication
such as e-mail or phone calls in an attempt to gather information from recipients.
16
   OIG, Information Technology: Network Security at the Office of the Comptroller of the Currency
Needs Improvement, OIG-08-035 (June 3, 2008)



                      OCC’s Network and Systems Security Controls Were Deficient           Page 20
                      (OIG-14-001)
Appendix 1
Objective, Scope and Methodology



In accordance with the agreed-upon Rules of Engagement, we
excluded TNet, as well as tests that could have adversely
affected operations and may have resulted in denial of service
to OCC employees or customers.

Upon completion of our tests, we provided OCC’s Information
Technology audit liaison with the reports generated by our
automated assessment tools so that timely corrective actions
could be taken. The reports provided details on specific
vulnerabilities detected and exploited, and the tools’ suggested
actions necessary to address them. We also briefed OCC
Information Technology management at the end of our on-site
evaluation on our activities and access we gained over the
course of our audit, including our analysis of the issues reported
by the tools we used.

We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis
for our finding and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




OCC’s Network and Systems Security Controls Were Deficient   Page 21
(OIG-14-001)
        Appendix 2
        Management Response




( ) Office of the Comptroller of the Currency
                                                                            Washington, DC 20219

  September 23, 2013



  Ms. Tram Jacquelyn Dang
  Audit Director
  Office of Inspector General
  Department of the Treasury
  Washington, DC 20220

  Subject: Response to Draft Report

  Dear Ms. Dang:

  We have reviewed your draft report titled "Information Technology: OCC's Network and
  Systems Security Controls Were Deficient." The report presents the results of the Office of
  Inspector General's (OIG) internal and external vulnerability assessments and penetration tests
  on OCC's network, systems and physical security.

  You found that OCC's security measures were not sufficient to fully prevent and detect
  unauthorized access into its network and systems by internal threats or external threats that
  gained an internal foothold; security measures were not adequate to fully protect personally
  identifiable information (PII) from Internet-based threats. You did, however, find that physical
  security at the OCC's new headquarters is adequate. You make I I recommendations to address
  the following deficiencies: use of default usernames and passwords; failure to fully implement
  least privilege controls; vulnerability of PII to unauthorized access; vulnerability of e-mail to
  spoofing; configuration management; vulnerability of Help Desk to social engineering; and patch
  and version management.

  We concur with your findings and recommendations. The enclosed table outlines our actions to
  address them.

  If you need additional information, please contact me or Ed Dorris, Chieflnformation Officer, at
  202-649-600 I.


  Si"'=~~
~urry
  Comptroller of the Currency

  Enclosure




        OCC’s Network and Systems Security Controls Were Deficient                                    Page 22
        (OIG-14-001)
      Appendix 2
      Management Response




                  OCC's Nehvork and Systems Security Controls Were Deficient
      OIG Recommendation                           OCC Management Response
#1 Develop and implement a        Standard operating procedures (SOPs) were updated on June
standard procedure requiring      6, 2013 to provide guidance that will ensure that all default
default usemames and passwords user names and passwords are changed on all systems and
be changed on all systems and     devices. The updated SOPs require all devices to be subject
devices.                          to management controls, which include specific checks in the
                                  review and approval process to ensure that usemames and
                                  passwords are changed prior to introducing new or modified
                                  software and/or devices to the network.
#2 Change all default usemames All default usemames and passwords were changed or
and passwords on all systems      updated effective September 2, 2013.
and devices in an expeditious
manner.
#3 Periodically review accounts   Effective August 16, 2013, the OCC began monthly scans to
to detect default usemames and    identify default user names and passwords on software and
passwords on all systems and      network devices which results in a Default Credentials
devices, and when detected,       report. In addition, OCC also conducts a Network
change them.                      Penetration Test every other month producing the Network
                                  Penetration Test report. These reports identify default
                                  usemames and passwords across network devices. OCC
                                  immediately remediates any findings. Results are
                                  periodically reported to the CIO, Deputy CIOs, and IT
                                  director-level leadership.
#4 Conduct a risk assessment of The OCC will complete a comprehensive assessment to
OCC's network topology and        quantify the risks and gaps associated with the legacy "flat"
implement appropriate least       network topology, and will develop a Target Network
privilege controls.               Topology Architecture and Roadmap for enabling
                                  appropriate least privilege controls by December 31, 2013.
#5 Restrict network access as     OCC has strengthened its policies, procedures, and network
required by business needs and    scanning for managing accounts with elevated privileges
in accordance with risk           (i.e., domain administrators, X-accounts, and service
assessment results and least      accounts). These changes mandate that elevated privileges
privilege principles.             are granted based on specific roles and subjected to a multi-
                                  tiered review and approval adjudication process. The
                                  domain administrator accounts have been adjudicated and
                                  rationalized. The X-accounts will be rationalized by
                                  December 15, 2013, and service accounts will be rationalized
                                  by March 31, 2014. OCC will execute the approved Target
                                  Network Topology Architecture and Roadmap to restrict
                                  network access in accordance with business needs and least
                                  privilege principles by March 17, 2014.




                                               1




      OCC’s Network and Systems Security Controls Were Deficient                                  Page 23
      (OIG-14-001)
      Appendix 2
      Management Response




#6 Implement safeguards to         The default password for the Complaint Referral Express
protect PII on OCC's Internet      website was changed on April24, 2013, and the management
website.                           console for the Complaint Referral Express website was
                                   decoupled from the publicly facing link on May 28, 2013.
                                   All external OCC websites that contain Personally
                                   Identifiable Information (PII) are secured and are not at risk
                                   for data leakage. To ensure these sites remain secure, OCC
                                   runs monthly vulnerability scans that detect weaknesses. In
                                   summary, the OCC: I) has updated its policy and procedures
                                   for securing sites with PII; 2) is using tools and manual
                                   testing to conduct monthly security testing of all of its
                                   external websites; and 3) has tested the specific method the
                                   auditors used to exploit the website to ensure it could not be
                                   reproduced on any other OCC websites.
#7 Work with Fiscal Service to     In consultation with the Treasury Bureau of Fiscal Service
ensure controls are put in place   (BFS) and the OIG, the OCC implemented an alternate
to prevent spoofed e-mails from    strategy to address the identified vulnerability, and the OCC
being sent to or through OCC       began blocking unauthorized source spoofing of the
servers.                           occ.treas.gov domain effective August 31, 2013.
#8 Develop and implement           OCC has a specific policy that requires that mandatory
procedures to identify,            configuration settings be established for information
document, and approve base         technology devices. To ensure consistent implementation of
configuration settings for ports   this policy, OCC will: 1) complete a baseline comprehensive
and services.                      configuration document reflecting the OCC's business needs
                                   for using ports and services by September 30, 2013; 2)
                                   update the existing configuration management process to
                                   include the identification and documentation of essential
                                   ports and services for application and hardware changes
                                   effective October 3 1, 2013; and 3) continue its existing
                                   monitoring and assessment processes to verify compliance
                                   with the baseline configurations.
#9 Disable or remove               New PCs deployed OCC-wide in FY13 restrict configuration
unnecessary or unused services     changes and ability to install software, thereby limiting the
or open ports.                     desktop to approved-only open ports and services. By
                                   October I, 2013, OCC will implement procedures to
                                   incorporate monthly monitoring and immediate disabling or
                                   removal of unauthorized ports and services for all network
                                   devices and applications; and by March 31, 2014, OCC will
                                   disable or remove all unnecessary or unused services or open
                                   ports identified in this audit. OCC is taking a methodical
                                   approach (based on rigorous testing) in order to mitigate
                                   disruption to business systems while disabling or removing
                                   unused services and ports across network devices and
                                   application portfolio.




                                               2




      OCC’s Network and Systems Security Controls Were Deficient                                    Page 24
      (OIG-14-001)
      Appendix 2
      Management Response




#10 Improve the Help Desk's          A new password authentication method for password reset,
procedures for verification of       which does not use information available to others, was
user identities to prevent           implemented on July 22,2013. All users and OCC IT staff
impersonation. The procedures        were informed of the changes, and internal controls within IT
should provide for verification of   Customer Support were implemented to ensure compliance
user identity information that is    to the new policy.
not available to others.
#II Ensure that systems and          Effective June 6, 2013, OCC implemented a bi-weekly
applications are running             network scanning procedure for detecting and forecasting
supported and up-to-date             instances of end-of-life software; by September 30, 2013,
operating systems.                   DCC will implement the End-of-Life and Unsupported
                                     Software policy to manage end-of- life software within
                                     specified timeframes and will implement procedures for
                                     upgrading software on workstations, servers, and network
                                     devices; and all instances of end-of-life software identified in
                                     this audit will be resolved by no later than November 30,
                                     2013.




                                                  3




      OCC’s Network and Systems Security Controls Were Deficient                                        Page 25
      (OIG-14-001)
Appendix 3
Major Contributors to This Report



Office of Information Technology (IT) Audits

   Tram J. Dang, Audit Director
   Larissa Klimpel, IT Audit Manager
   Dan Jensen, Auditor-in-Charge
   Jason Beckwith, IT Specialist
   Mitul “Mike” Patel, IT Specialist
   Don’te Kelley, IT Specialist
   Jeanne DeGagne, Referencer




OCC’s Network and Systems Security Controls Were Deficient   Page 26
(OIG-14-001)
Appendix 4
Report Distribution



Office of the Comptroller of the Currency

   Chief Information Officer

Department of the Treasury

   Office of Chief Information Officer
   Associate Chief Information Officer for Cyber Security
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of Management and Budget

   Office of Inspector General Budget Examiner




OCC’s Network and Systems Security Controls Were Deficient   Page 27
(OIG-14-001)
